NO._____________

IN THE SUPREME COURT OF THE UNITED STATES

ALEJANDRO PINEDA-CAMPUZANO,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
H. MICHAEL SOKOLOW, appointed under the Criminal Justice Act, certifies
that, pursuant to Rule 29.5, he served the preceding Petition for Writ of Certiorari and the
accompanying Motion for Leave to Proceed In Forma Pauperis on counsel for the
Respondent (1) by mailing, on December 2, 2020, a copy of these documents (via firstclass United States mail, postage prepaid) to:
The Honorable Jeffery B. Wall
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on December 2, 2020, the said documents via electronic mail to
the Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

H. MICHAEL SOKOLOW

